             Pittsburg Pre-School and Community Council, Inc.’s 

                        Use of Early Reading First and 

                  Migrant Education Even Start Grant Funds 




                                 FINAL AUDIT REPORT




                                            ED-OIG/A09F0010
                                              March 2006



Our mission is to promote the efficiency,                     U.S. Department of Education
effectiveness, and integrity of the                           Office of Inspector General
Department’s programs and operations                          Sacramento, California
                         NOTICE

Statements that managerial practices need improvements, as well as
other conclusions and recommendations in this report represent the
opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate
Department of Education officials.

In accordance with Freedom of Information Act (5 U.S.C. § 552),
reports issued by the Office of Inspector General are available to
members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.
                                         TABLE OF CONTENTS 



                                                                                                                            Page

EXECUTIVE SUMMARY ...................................................................................................1


BACKGROUND ......................................................................................................................2


AUDIT RESULTS ...................................................................................................................4


          FINDING NO. 1 – PPCC Charged the Grants for Costs That Were Not 

                          Necessary, Approved, or Related to Grant Activities ........5 


          FINDING NO. 2 – PPCC Did Not Maintain Required Documentation for 

                          Personnel Costs Charged to the Grants ............................. 11 


          FINDING NO. 3 – PPCC Did Not Provide Adequate Documentation for 

                          Other Non-Personnel Costs Charged to the Grants ........ 13 


          FINDING NO. 4 – PPCC Did Not Meet Grant Matching Cost 

                          Requirements............................................................................ 16 


          FINDING NO. 5 – PPCC Drew Down Federal Funds for the 2004 MEES 

                          Grant in Excess of Its Immediate Needs ............................ 19 


          FINDING NO. 6 – PPCC Procedures and Practices Did Not Meet Federal 

                          Standards for Financial Management Systems ............... 20 


OBJECTIVE, SCOPE, AND METHODOLOGY .................................................... 25


Enclosure: PPCC’s Comments on the Draft Report ..................................................... 26

                             UNITED STATES DEPARTMENT OF EDUCATION 

                                  OFFICE OF INSPECTOR GENERAL 

                                             501 I STREET, SUITE 9-200
                                         SACRAMENTO, CALIFORNIA 95814
                                       PHONE (916) 930-2388 · FAX (916) 930-2390


                                                          March 17, 2006
                                                                    2006

Frances Gr
        Gree
           eene
             ne
Executive Director
Pittsburg Pre-School
          Pre-School and C
                         Coommunity Council, Inc.
1760 Chester Drive
Pittsburg, CA 94565

Dear Ms. Gre
         Greene:

Enclosed is our final audit report, Contr
                                     Controol Numb
                                              Number ED-OIG/A09F0010, entitled Pittsburg Pr      Pre-School
                                                                                                    e-School and
Community Council, Inc.’s Use of Early Reading First First and MMiigrant Education Even Start Gran
                                                                                                 Grantt Funds
                                                                                                         Funds..
This report incorporates
            incorporates the comments
                              comments you provprovided in
                                                         in response to the draft repo
                                                                                  report.
                                                                                       rt. If you hav
                                                                                                  havee any
additional comments
           comments or information
                         information that you believe ma  mayy have a bbearing
                                                                        earing on the resolution of this audit,
you should send
            send them directly to tthhe following
                                        following Education
                                                   Education Department officials, who will consid
                                                                                                consider them
before taking final Departme
                    Departmental
                               ntal action on this audit:

                                         William McCabe
                                         Acting Chief Financial Officer
                                         Office of the Chief Financial Officer
                                         US Department of Education
                                                            Education
                                         400 Mary
                                             Maryland
                                                   land Ave., SW, Room 4E313
                                         Washington, D.C. 20202
                                                            20202

                                         Hen
                                         Henrry L. John
                                                    Johnso
                                                         sonn
                                         Assist
                                         Assistant
                                                ant Sec
                                                    Secrretary
                                         Office of Elementary and Secondary Education
                                         US Department of Education
                                                              Education
                                         400 Mar
                                             Maryylan
                                                    landd Ave., SW, Room 3W315
                                         Washington, D.C. 2020202022

It is the policy
          policy of the U. S. Department of Educati
                                             Education
                                                    on to expedite the resolution of audits by initiating
timely action on the find
                       findin
                            ings                                therein. Therefore, receipt of your
                              gs and recommendations contained therein.
comments
comments wi within
               thin 30 da
                        dayys would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office of
Inspector General are available
                       available to me
                                    members of the pr
                                                    press
                                                      ess and genera
                                                              general public to tth
                                                                                  he extent infor
                                                                                            inform
                                                                                                 mation
contained ther
          therein is not su
                         subject
                           bject to exemptions in the Act.

                                                               Sincerely,

                                                                 /s/
                                                               Gloria Pilotti
                                                               Regional Insp
                                                                         Inspector
                                                                              ector General for Audit

Enclosure
            Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
 Final Report
 ED-OIG/A09F0010                                                                       Page 1 of 36




                                 EXECUTIVE SUMMARY 



The purpose of the audit was to determine whether the Pittsburg Pre-School and Community Council,
Inc. (PPCC) properly accounted for and used grant funds provided under the Early Reading First (ERF)
Grant #S359B031058 and Migrant Education Even Start Grants #S214A000006 (2000 MEES) and
#S214A040004 (2004 MEES) in accordance with the grant terms and applicable Federal laws and
regulations. Our review covered grant expenditures recorded in PPCC’s accounting system for the
period October 1, 2003 through February 28, 2005. We concluded that—

   • 	 PPCC improperly charged the grants for $98,862 of costs that were not necessary, approved,
       or related to grant activities. PPCC improperly charged the ERF grant account for construction,
       testing and data collection, playground equipment, conference fees and travel, and books and
       supplies. PPCC improperly charged the 2000 MEES grant accounts for flyers. PPCC also
       improperly charged $21,046 of indirect costs to the MEES grant accounts.

   • 	 PPCC did not have required documentation for personnel costs charged to the grants. PPCC
       employee timesheets did not identify the activities that the employees were engaged in during
       the pay period and PPCC used predetermined percentages to distribute the employee’s salary
       to the grants for employees whose salaries were charged in part to the grants. As a result, we
       were unable to determine whether the $671,755 charged to the grant accounts for personnel
       costs was reasonable and allocable to the grants.

   • 	 PPCC did not provide adequate documentation for non-personnel costs charged to the grant
       accounts. Because PPCC did not provide adequate documentation, we were unable to determine
       whether $118,554 of non-personnel costs were reasonable and allocable to the grants.

   • 	 PPCC did not meet grant matching costs requirements. PPCC provided a list of personnel
       and fringe benefits costs that it claimed were used to meet the required match for the ERF
       grant and the 2004 MEES grant, but the documentation provided was not sufficient to show
       that the claimed amounts were for grant-related activities. PPCC did not provide information
       on whether or how it met the required match for the 2000 MEES grant.

   • 	 PPCC drew down Federal funds for the 2004 MEES grant that were in excess of its immediate
       needs.

   • 	 PPCC procedures and practices did not meet Federal standards for financial management
       systems. PPCC’s practices and weaknesses identified in its internal control placed grant funds
       at risk of loss or waste.

We recommend that the Acting Chief Financial Officer, in collaboration with the Assistant Secretary for
Elementary and Secondary Education, require PPCC to return or adjust its claims for reimbursement for
improper charges and unsupported costs charged to the grant accounts. We also recommend several
actions that PPCC should take to improve the internal controls in its financial management system.
PPCC generally disagreed with our findings and recommendations.
Final Report
ED-OIG/A09F0010                                                                                    Page 2 of 36



                                           BACKGROUND 



PPCC is a non-profit organization located in Pittsburg, California. PPCC, which has been in
operation for over 30 years, provides programs and services to low-income and no-income
families in Contra Costa County. These services include pre-school programs, youth services,
senior services, job training, and health education. PPCC receives various grants from Federal
and state agencies. The Schedule of Expenditures of Federal and State Awards, included in the
A-133 audit report for the year ended June 30, 2004, shows that PPCC administered
15 Federally-funded grants and 5 State-funded grants during that year.

                        Table 1: ERF Grant and MEES Grants Awarded to PPCC
                                                                                               Grant Funds
                                                                                Grant
                Grant                         Performance Period                               Received as of
                                                                                Award (a)
                                                                                                 09/27/05
 Early Reading First Grant
                                          10/1/2003 through 9/30/2006         $1,921,531          $804,756
 (ERF Grant)
 Migrant Education Even Start Grant
                                          11/1/2000 through 9/30/2004           $975,427          $975,427
 (2000 MEES Grant)
 Migrant Education Even Start Grant
                                          10/1/2004 through 9/30/2008         $1,342,980          $195,846
 (2004 MEES Grant)
 (a) The grants required PPCC to provide matching funds. Finding No. 4 provides details on the required match for
     each grant. The ERF grant provided for an indirect cost rate of a maximum of 8 percent. The MEES grant funds
     may not be used for indirect costs of the program.

ERF is a discretionary grant program designed to prepare pre-school age children to enter
kindergarten with the language, cognitive, and early reading skills necessary for reading success.
The U.S. Department of Education (Department) provides ERF grants, for up to three years, to
eligible local educational agencies and other organizations to transform early childhood
programs into centers of excellence that provide high-quality education to pre-school age
children, especially those from low-income families. The Student Achievement and School
Accountability unit (SASA) within the Department’s Office of Elementary and Secondary
Education (OESE) administers the ERF program.

MEES is a discretionary grant program designed to break the cycle of poverty and improve the
literacy of migrant families through a unified program of family literacy services. The
Department provides four-year MEES grants to state educational agencies, local educational
agencies, and nonprofit organizations to provide services and strategies to help parents and
children meet their educational goals and to support parents in their role as their child’s first
teacher. Services are provided to migrant families that qualify for the program under Title I,
Part C of the Elementary and Secondary Education Act (ESEA) and meet the eligibility
requirements of the William F. Goodling Even Start Family Literacy Programs. The Office of
Migrant Education (OME) within OESE administers the MEES program.
Final Report
ED-OIG/A09F0010                                                                     Page 3 of 36


On November 1, 2004, SASA placed PPCC on “high-risk” status for the ERF grant and imposed
special conditions on the grant. On May 11, 2005, the OME placed PPCC on “high-risk” status
for the 2004 MEES grant. One of the special conditions imposed on the grants as a result of the
“high-risk” designation was that PPCC receive grant funds on a reimbursement basis. Under the
reimbursement basis, PPCC must provide documents and justifications for expenditures and
obtain Department approval prior to requesting grant funds through the Department’s Grant
Administration and Payment System. On August 12, 2005, PPCC informed SASA of the
decision to voluntarily terminate its participation in the ERF program. On November 2, 2005,
OME informed PPCC that it would not provide continuation funding for the remainder of the
MEES grant performance period (October 1, 2005 through September 30, 2008).
Final Report
ED-OIG/A09F0010                                                                                      Page 4 of 36




                                           AUDIT RESULTS 


We concluded that PPCC used grant funds for unallowable costs, did not maintain required
documentation for personnel costs charged to the grants, and did not have adequate
documentation for other non-personnel costs charged to the grants. The below table shows the
direct costs charged to each grant and the disallowed and unsupported direct costs identified in
our review.1

                           Table 2: Direct Costs Charged to PPCC’s Grant Accounts
                                                                                                       Total
                     Total Direct                                              Unsupported
                                                            Unsupported                             Disallowed
                    Costs Charged        Disallowed                            Non-Personnel
      Grant                                                  Personnel                                 and
                     to the Grant        Direct Costs                           Direct Costs
                                                            Direct Costs                           Unsupported
                       Account
                                                                                                   Direct Costs
    ERF                 $688,416 (a)         $98,429 (d)       $364,865             $90,179           $553,473
    2000
                        $268,847 (b)            $433           $230,786             $27,754           $258,973
    MEES
    2004
                          $85,278 (c)              --­          $76,104                $621            $76,725
    MEES
    Totals             $1,042,541            $98,862           $671,755           $118,554            $889,171

    (a) Costs charged during period October 1, 2003 to February 28, 2005 less $3,393 adjustment for erroneous
        recording of vendor credit memo as a vendor payment. As of March 1, 2005, PPCC had drawn $636,610 of ERF
        grant funds.
    (b) Costs charged during period October 1, 2003 to September 30, 2004 (last year of the grant’s four year
        performance period). PPCC made its final draw of 2000 MEES grant funds on September 14, 2004.
    (c) Costs charged during period October 1, 2004 to February 28, 2005. As of March 1, 2005, PPCC had drawn
        $139,890 of 2004 MEES grant funds.
    (d)Includes $2,541 for purchases for the ERF grant, other grants, and general purposes where the documentation
        provided by PPCC did not contain the information needed to identify the portion allocable to the ERF grant.


PPCC also improperly charged $12,736 and $8,310 of indirect costs to the 2000 MEES and
2004 MEES grant accounts, respectively. Additionally, we found that PPCC did not meet the
required matching contribution for each of the three grants and, as a result, grant funds used for
allowable costs will also need to be returned if PPCC does not provide adequate supporting
documentation for its share of program costs. We found that PPCC drew down Federal funds for
the 2004 MEES grant in excess of its immediate needs and its procedures and practices did not
meet Federal standards for financial management systems.



1
  ED program staff have requested explanations and additional documentation on amounts claimed for
reimbursement under the 2004 MEES grants. PPCC had yet to provide the requested information as of
February 22, 2006. Thus, additional disallowed and unsupported costs may be identified as a result of the program
staff reviews of the expenditures.
Final Report
ED-OIG/A09F0010                                                                          Page 5 of 36


In its comments on the draft report, PPCC generally disagreed with our findings. PPCC’s
comments are summarized at the end of each finding and the full text of the comments is
included as an enclosure to the report.

FINDING NO. 1 – 	 PPCC Charged the Grants for Costs That Were Not Necessary,
                  Approved, or Related to Grant Activities

PPCC improperly charged $98,862 to the ERF and MEES grant accounts for costs that were not
necessary, approved or allocable to the grants. PPCC also improperly charged the MEES grant
accounts for indirect costs that were not allowed to the grants. Education Department General
Administrative Regulations (EDGAR) 34 C.F.R, § 74.27 requires private nonprofit
organizations, such as PPCC, to determine allowable costs in accordance with Office of
Management and Budget (OMB) Circular A-122, Cost Principles for Non-Profit Organizations.
Attachment A, paragraph A.2.a of OMB Circular A-122 states that to be allowable under a grant,
costs must “be reasonable for the performance of the award and be allocable thereto under these
[cost] principles.”

Paragraph A.3, which defines reasonable costs, states—
       In determining the reasonableness of a given cost, consideration shall be given to:
       a. 	 Whether the cost is of a type generally recognized as ordinary and necessary
            for the operation of the organization or the performance of the award.

Paragraph A.4.a, which defines allocable costs, states—
       A cost is allocable to a particular cost objective, such as a grant, contract, project,
       service, or other activity, in accordance with the relative benefits received. A cost
       is allocable to a Federal award if it is treated consistently with other costs incurred
       for the same purpose in like circumstances and if it:
              (1) Is incurred specifically for the award.
              (2) Benefits both the award and other work and can be distributed in
                  reasonable proportion to the benefits received....

OMB Circular A-122, Attachment B, paragraph 15 provides cost principles for determining the
allowability of equipment and other capital expenditures. Paragraph 15.b. states—
       (1) Capital expenditures for general purpose equipment, buildings, and land are
       unallowable as direct charges, except where approved in advance by the awarding
       agency.
                                            *****
       (3) Capital expenditures for improvements to land, buildings, or equipment which
       materially increases their value or useful life are unallowable as a direct cost
       except with the prior approval of the awarding agency.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations provides
standards for the administration of grants. Subpart C, paragraph 25 (a) and (b) states that
Final Report
ED-OIG/A09F0010                                                                                    Page 6 of 36


“[t]he budget plan is the financial expression of the project or program as approved during the
award process” and that grant recipients “are required to report deviations from budget and
program plans, and request prior approvals for budget and program plan revisions, in accordance
with this section.” These provisions are also contained in EDGAR 34 C.F.R. 74.25(a) and (b).

PPCC staff responsible for purchasing stated that the accounting clerk identifies the PPCC
account to be used for purchases and confirms the allowability of the purchase and that the
appropriate budget line item contains sufficient funds for the purchase. Hence, if these
procedures had been diligently performed, the PPCC accounting clerk would have properly:
1) identified the grant account to be charged for the purchase; 2) confirmed the allowability of
using grant funds for the cost; 3) confirmed that the approved budget had funds available for the
purchase, 4) obtained required prior approvals, when necessary; and 5) allocated vendor
payments to the grant accounts identified on the documentation.

PPCC Charged Amounts to the ERF Grant That Were
Not Necessary, Approved, or Allocable to the Grant

PPCC improperly charged the ERF grant account for $98,429 of construction, testing and data
collection, playground equipment, conference fees and travel, and books and supplies.

Construction. PPCC charged the grant account $49,760 for construction costs for upgrading
three existing classrooms and completing construction of two new classrooms.2 EDGAR 34
C.F.R. § 75.533 states that “[n]o grantee may use its grant for acquisition of real property or for
construction unless specifically permitted by the authorizing statute or implementing regulations
for the program.” Also, OMB Circular A-122, Attachment B, paragraph 15.b. (3) states that
capital expenditures, which materially increase the value of land and buildings, are not allowed
unless prior approval is obtained from the awarding agency. The approved budget for the ERF
grant did not include amounts for construction. However, paragraph 27 of the Circular allows
the use of grant funds for costs incurred for the necessary maintenance and repair of buildings to
keep the buildings in an efficient operating condition and the Department’s Guidance for the
Early Reading First Program, dated March 17, 2003, states—

        Early Reading First funds may be used for the reasonable and necessary costs
        associated with minor remodeling or alterations of classroom space to enhance
        early language and cognitive development activities. For example, funds may be
        used to create a separate reading center or “library” area, as long as there are no
        structural alterations to the building. However, Early Reading First funds may not
        be used to make structural alterations (such as moving walls) or for construction.



2
  The audit documentation for the Independent Public Accountant’s (IPA’s) OMB Circular A-133 audit report for
the fiscal year ended June 30, 2004 showed that additional payments to the construction firm were charged to the
2000 MEES and ERF grants; however, the payments were not included in the list of grant charges provided to us
from PPCC’s accounting system. The IPA’s audit documentation showed that Check # 40060 for $15,000 was
charged to the 2000 MEES grant on February 6, 2004 and Check # 40473 for $35,000 was charged to the ERF grant
on April 27, 2004. The IPA concluded that the payments were an allowable use of grant funds, but the audit
documentation contained no indication that the IPA tested for compliance with EDGAR and OMB Circular A-122
requirements.
Final Report
ED-OIG/A09F0010                                                                         Page 7 of 36


In a letter to SASA dated November 29, 2004, the Executive Director identified the following
upgrades for rooms #1 through #3 (existing classrooms) and rooms #4 and #5 (new classrooms):
installation of sprinkler system (rooms #4 and #5), interior and exterior painting (rooms #1, #4,
and #5), interior finishing (rooms #1, #4 and #5), telephone and computer updates (rooms #1
through #5), and installation of vinyl floor & carpeting (rooms #4 and #5). Based on the
information provided, we concluded that $40,560 of the $49,760 of construction costs was for
completion of new classrooms, and thus, an unallowable use of ERF grant funds.

Testing and Data Collection. PPCC charged the grant account $86,000 for quarterly installments
on a contract for evaluation, data collection and testing administration, and other related services
for the ERF program (four payments of $21,500). The contract listed the following five tasks:
1) Provide consultation on the implementation of the project; 2) Create a data collection process
by which the project is to report data; 3) Make at least eight onsite evaluation visits each year;
4) Provide a comprehensive evaluation of the ERF program in keeping with Federal guidelines,
including an annual evaluation report each year; and 5) Participate in all Federally-mandated
evaluation meetings related to the grant program. The approved budget for the ERF grant
provided $44,000 for the contract for the evaluation of PPCC’s ERF program and $42,000 for a
full-time PPCC position titled “Testing and Data Collection Administrator.” PPCC did not
request or obtain prior approval to contract out for the data collection and testing administration.

EDGAR 34 C.F.R. § 74.25(c)(8) states—

       For nonconstruction awards, recipients shall request prior approvals from [the
       Department] for one or more of the following program or budget related reasons:
                                             *****
       (8) Unless described in the application and funded in the approved awards, the
       subaward, transfer or contracting out of any work under an award.

The $42,000 is an unallowable charge to the ERF grant because PPCC failed to obtain SASA’s
prior approval. Also, as we discuss later in the report, PPCC did not provide documentation to
confirm that the contractor performed the data collection and testing administration for which it
was paid (Finding No. 3) and the contractor hired the PPCC Executive Director’s son to assist
with system analysis for the contract (Finding No. 6).

Playground Equipment. PPCC charged the ERF grant account for $8,366 in playground
equipment. Playground equipment was neither listed in the approved budget nor did the PPCC
obtain prior approval before purchasing that equipment. Also, the equipment was not necessary
or reasonable for performance of the ERF program because it had no specific literacy focus or
purpose.

Conference Fees and Travel. PPCC improperly charged conference fees and travel costs for
PPCC staff who did not work on the ERF activities or for costs that were unnecessary for
performance of the grant.
Final Report
ED-OIG/A09F0010                                                                                       Page 8 of 36


    • 	 PPCC charged $3,196 to the grant account for conference fees, travel, and related
        expenses for the MEES Project Director. The MEES Project Director was not assigned
        to perform work on the ERF grant. Therefore, none of the travel or conference expenses
        should have been charged to the grant.3

    • 	 PPCC erroneously charged $375 to the ERF grant account for three staff to attend a
        conference sponsored by the Center for Substance Abuse Prevention. PPCC staff stated
        that the conference fees should have been charged to a U.S. Department of Health and
        Human Services (HHS) grant.
        The PPCC Executive Director also attended the Center for Substance Abuse Prevention
        conference prior to attending an Early Reading First Grantees Meeting being held in the
        same city. MEES Project Director PPCC charged $521, the entire cost of the airfare for
        the trip, to the ERF grant. PPCC should have allocated $195 of the airfare to the HHS
        grant account.4

    • 	 Travel costs that PPCC charged for staff working on the ERF grant included amounts that
        were not necessary for the performance of grant activities. The grant account was
        charged $171 for round-trip airfare for the PPCC Executive Director to leave an
        educational conference in Reno, Nevada to attend a meeting in the Bay Area and then
        return to the conference. The grant account was charged $463 in excess of the normal
        airfare costs for the ERF Project Director to attend the Reno conference5 and the grant
        account was charged $40 for one full day of per diem for the Project Director when her
        flight did not leave until 8:15 PM.

Books and Supplies. Books and supplies, totaling $522, were improperly charged to the ERF
grant account. The purchase orders or other provided documentation indicated the purchases
were for other grant programs or should have been charged to PPCC’s overhead account. The
grant account was also charged $2,541 for other purchases that should have been charged in part
to other grants or the overhead account, but the documentation provided did not contain the
needed information to identify the amount improperly charged to the ERF grant.

PPCC Charged an Amount to the 2000 MEES Grant That
Was Not Necessary or Allocable to the Grant

PPCC charged the grant account $433 for the printing of flyers (English/Spanish) that were for
another PPCC program (Nuestra). The cost should not have been charged to the MEES grant
because the cost was not necessary for the performance of the grant.

3
 The travel costs of the MEES Project Director may be applied to the 2000 MEES grant account, if funds are
available.
4
 The Executive Director attended 1½ days of the Center for Substance Abuse Prevention conference (37.5 percent
of her trip) and 2 ½ days of the Early Reading First Grantees Meeting (62.5 percent of her trip). Airfare of
$521multiplied by 37.5 percent equals $195, the amount that was improperly charged to the ERF grant.
5
  The initial round-trip ticket between San Francisco and Reno was issued on February13, 2004 at a cost of $171
with a departure date of May 1, 2004. A second one-way ticket from San Francisco to Reno was purchased on
April 20, 2004 at a cost of $363 with a departure date of April 30, 2004. A ticket change at a cost of $100 was made
on May 2, 2004 for the trip from Reno to San Francisco. The charge to the grant for the trip should have been
limited to the initial cost of $171.
Final Report
ED-OIG/A09F0010                                                                                      Page 9 of 36



PPCC Improperly Charged Indirect Costs to the MEES Grant Accounts

PPCC improperly charged the 2000 MEES and 2004 MEES grant accounts $12,736 and $8,310,
respectively, for indirect costs that were not allowed under the grants. The ESEA, Title I, Part B,
Subpart 3 establishes requirements for the use of funds provided for MEES and other Even Start
programs. ESEA § 1234(b)(3) states that Federal funds provided under these programs may not
be used for indirect costs, unless the requirement is waived.6 In its applications for the 2000
MEES and 2004 MEES grants, PPCC did not include in its budgets an amount for indirect costs
and did not request a waiver from the requirement. Nevertheless, PPCC charged indirect costs to
its MEES grant accounts.

Recommendations

We recommend that the Acting Chief Financial Officer, in collaboration with the Assistant
Secretary for Elementary and Secondary Education, require PPCC to—

1.1 	   Return or adjust its claims for reimbursement, whichever is appropriate, for the
        $95,888 improperly charged to the ERF grant account (plus related indirect costs) and
        $433 improperly charged to the 2000 MEES grant account.7

1.2 	   Identify the portion of the $2,541 that was improperly charged to the ERF grant account
        (plus related indirect costs) and return the amount or adjust its claims for reimbursement,
        whichever is appropriate.

1.3 	   Return or adjust its claims for reimbursement, whichever is appropriate, for the $12,736
        and $8,310 charged for indirect costs to the 2000 MEES and 2004 MEES grant accounts,
        respectively, and any additional indirect costs charged after February 28, 2005.

1.4 	   Have an independent public accountant review costs charged to the ERF grant and 2004
        MEES grant after February 28, 2005 to confirm that the costs were necessary, approved,
        and allocable to the grants and that amounts for any improper charges for that period
        have been returned to the Department or adjusted in its claims for reimbursement.

1.5 	   Implement additional controls in its procedures to ensure that purchases for Department-
        funded grants or subgrants are allowed by the grant terms and approved budgets, needed
        prior approvals are obtained, and the costs of items purchased are properly allocated to
        the appropriate grant and other PPCC accounts.




6
 The Department may waive the requirement if an eligible recipient of funds demonstrates to the Secretary's
satisfaction that the recipient otherwise would not be able to participate in the program.
7
 The $95,888 for the ERF Grant is comprised of the following amounts noted in the finding: $40,560, $42,000,
$8,366, $3,196, $375, $195, $171, $463, $40, and $522.
Final Report
ED-OIG/A09F0010                                                                         Page 10 of 36


PPCC Comments and OIG Response

PPCC concurred with the part of the finding addressing conference fees and travel and stated that
the improper charges to the ERF grant had been corrected. However, PPCC disagreed with, or
stated it was unable to comment on, other parts of the finding. PPCC also commented on
computer software purchases cited in the draft report that we subsequently concluded were
allowable uses of ERF funds and, thus, did not include in the final report.

Construction. PPCC stated that the construction costs were for internal remodeling of a
classroom and a sprinkler system and that the remodeling was required for PPCC to conduct
ERF grant activities in the classroom. PPCC cited the Departmental guidance and stated that the
activities were not basic construction or structural alternations, but minor alterations of
classroom space.

PPCC’s comment that the construction costs were for internal remodeling of a classroom
conflicts with statements in the Executive Director’s letter to SASA that the costs were for
upgrades for three existing classrooms and two new classrooms. We modified our finding to
include the Department’s guidance and, based on that guidance, we limited the disallowed costs
to the $40,560 related to construction of new classrooms.

Testing and Data Collection. PPCC disagreed with this part of the finding on the grounds that
the amount paid to the contractor for the Data Collection Specialist (contractor’s employee) was
in the approved ERF budget. PPCC stated that the data collection was performed as required by
the grant and paid for within limits approved in the grant.

PPCC comments did not address the fact that PPCC did not request or obtain the required
approval to contract out the testing and data collection activities nor provide support for its
statement that the data collection activities were performed.

Playground Equipment. PPCC disagreed with this part of the finding on the grounds that the
equipment was for the exclusive use of ERF students.

Whether or not ERF students exclusively used the playground equipment is not relevant to the
determination of the allowability of the purchase. As we noted in the finding, the equipment
needed to have a specific literacy focus or purpose to use ERF funds for the purchase.

Books and Supplies and 2000 MEES Grant. PPCC stated it was unable to concur or disagree
with these parts of the finding because it was unable to identify the cited amounts in the list of
the items of concern given to PPCC at the time of the auditor’s site visit.

We provided PPCC with the transaction detail for the cited items on September 8, 2005 (prior to
the exit conference) and again on November 10, 2005 (after receipt of the first part of PPCC’s
comments on the draft report). PPCC did not ask for clarification during the exit conference or
later, even though we had encouraged them to contact us if they had questions.
Final Report
ED-OIG/A09F0010                                                                        Page 11 of 36


FINDING NO. 2 – 	 PPCC Did Not Maintain Required Documentation for
                  Personnel Costs Charged to the Grants

PPCC employees prepared semi-monthly timesheets showing arrival and departure times and
hours worked, but the timesheets did not identify the activities that the employees were engaged
in during the period. Also, for employees whose salaries were charged in part to the grants
(split-funded employees), PPCC used predetermined percentages to distribute the employee’s
salary to the grants. As a result, we were unable to determine whether the $671,755 charged to
the grant accounts for personnel costs was reasonable and allocable to the grants.

OMB Circular A-122, Attachment B, paragraph 8.m. describes the support required for
personnel costs charged to Federal grants. The subparagraph (1) states that “[t]he distribution of
salaries and wages to awards must be supported by personnel activity reports as prescribed in
subparagraph (2) . . . .” Subparagraph (2) states that “[r]eports reflecting the distribution of
activity of each employee must be maintained for all staff members (professionals and
nonprofessionals) whose compensation is charged, in whole or in part, directly to awards . . .”
and that the reports maintained by non-profit organizations must meet the following standards.

       (a) The reports must reflect an after-the-fact determination of the actual activity
       of each employee. Budget estimates (i.e., estimates determined before the
       services are performed) do not qualify as support for charges to awards.
       (b) Each report must account for the total activity for which employees are
       compensated and which is required in fulfillment of their obligations to the
       organization.
       (c) The reports must be signed by the individual employee, or by a responsible
       supervisory official having first hand knowledge of the activities performed by
       the employee, that the distribution of activity represents a reasonable estimate of
       the actual work performed by the employee during the periods covered by the
       reports.
       (d) The reports must be prepared at least monthly and must coincide with one or
       more pay periods.

The timesheets met the requirements of paragraphs (b) and (d) above, but did not meet the other
listed requirements. The timesheets did not identify the actual grant-related activities that the
employees were engaged in during the hours worked. The employee and the employee’s
supervisor signed the timesheets. However, since there was no information on the timesheets
regarding the employee’s actual activities during the period, the signatures do not provide any
assurance that the distribution of activity (100 percent or the predetermined percentage)
represents a reasonable estimate of the actual work on grant activities. PPCC staff were unaware
of the standards for personnel activity reports.
Final Report
ED-OIG/A09F0010                                                                                        Page 12 of 36


The following table shows the personnel costs charged to the grant accounts for employees
whose salaries were charged entirely to the specified grant and for split-funded employees.

                             Table 3: Personnel Costs Charged to the Grants
                         Salary Costs            Salary Costs
                                                                     Fringe Benefits
                    for Employees Whose Charged to the Grant
    Grant                                                            Charged to the                       Total
                     Salary Was Charged        for Split-Funded
                                                                        Grant (a)
                    Entirely to the Grant         Employees
ERF                           $192,208                       $79,755                  $92,902            $364,865

2000 MEES                     $125,627                       $45,572                  $59,587            $230,786

2004 MEES                      $35,425                       $17,286                  $23,393              $76,104

Total                         $353,260                      $142,613                 $175,882            $671,755
(a) PPCC did not provide the information needed to identify the payroll taxes and other benefits applicable to
employees whose entire salary was charged to the grant account and those applicable to split-funded employees.

PPCC did not provide any additional documentation to support the personnel costs charged to the
grants. Therefore, we have no assurance that personnel costs charged to the grants were for
employees’ time expended on grant-related activities.8

Recommendations

We recommend that the Acting Chief Financial Officer, in collaboration with the Assistant
Secretary for Elementary and Secondary Education, require PPCC to—

2.1 	    Provide adequate supporting documentation that the employees, whose personnel costs
         (salary and staff benefits) were charged 100 percent to the ERF or MEES grant accounts,
         actually worked solely on grant-related activities. If adequate documentation is not
         provided, PPCC should return or adjust its claims for reimbursement, whichever is
         appropriate, for the personnel costs (plus related indirect costs charged to the ERF grant
         account).




8
  The Department raised other concerns regarding the personnel costs and other costs for the related employees. In
the report on its April 7-8, 2005 monitoring visit, SASA informed PPCC that resumes provided for individuals
employed as Early Reading Specialists and Coaches met none of the qualifications outlined in the approved grant
application for Early Reading Specialists, and, as such, the costs for these individuals were not necessary and
reasonable costs for the purpose of the ERF grant. In a letter to PPCC dated May 11, 2005, OME stated its concerns
that PPCC had not requested or obtained required prior approval for changes in key personnel and that the MEES
Project Director was assigned to work only 50 percent of her time on the 2004 MEES grant when the application
specified that the Project Director would work full time. OME stated that the reduction in time violated 34 CFR
74.25(c)(3), which requires prior approval for a reduction of 25 percent or more in the time devoted to the project by
the approved project director.
Final Report
ED-OIG/A09F0010                                                                      Page 13 of 36


2.2 	   Provide adequate supporting documentation supporting the allocation percentages used to
        charge the ERF and MEES grant accounts for personnel costs of split-funded employees.
        If adequate documentation is not provided, PPCC should return or adjust its claims for
        reimbursement, whichever is appropriate, for the personnel costs (plus related indirect
        costs charged to the ERF grant account).

2.3 	   Implement a personnel activity report for employees working on Department-funded
        grants or subgrants that complies with the requirements of OMB Circular A-122.

PPCC Comments

PPCC claimed that it was unaware that the auditors needed more documentation for the
personnel costs charged to the grants. PPCC stated that job descriptions document the exclusive
duties of employees whose personnel costs are charged 100 percent to either the ERF or MEES
grant program. PPCC also stated that daily logs are prepared for employees that work on more
than one program and provided a copy of the “activity log” form that it developed for
split-funded employees.

OIG Response

The OIG auditors informed PPCC during a meeting held May 16, 2005 and again on
September 8, 2005 (prior to the exit conference) that the provided documentation did meet the
requirements specified in OMB Circular A-122. Job descriptions are not an after-the-fact
determination of the actual activity of the employee. As we noted in the finding, the daily logs
(i.e., semi-monthly timesheets) referred to in PPCC’s comments did not identify the activities
that the employees engaged in during the covered period.

The “activity log” form that PPCC has developed for split-funded employees will not meet the
requirements of OMB Circular A-122 because it does not provide for the signature of the
individual employee or a responsible supervisory official confirming that the distribution of
activity represents a reasonable estimate of the actual work performed by the employee during
the period covered by the activity log.


FINDING NO. 3 – 	 PPCC Did Not Provide Adequate Documentation for Other
                  Non-Personnel Costs Charged to the Grants

PPCC did not provide adequate documentation for $118,554 charged to the grant accounts.
OMB Circular A-122, Attachment A, Paragraph A.2, which lists the factors affecting
allowability of costs, states that costs must “be adequately documented.” Because PPCC could
not readily provide requested documentation, we concluded that PPCC either did not maintain
the documentation needed or had maintained it in a manner that did not allow PPCC staff to
locate the documentation for our review. Because PPCC did not provide adequate
documentation, we were unable to determine whether the costs were reasonable for the
performance of the award and allocable to the grants.
Final Report
ED-OIG/A09F0010                                                                                      Page 14 of 36


PPCC Did Not Provide Adequate Documentation
For Costs Charged to the ERF Grant

PPCC did not provide adequate documentation to demonstrate that $90,179 charged to the ERF
grant account for program evaluations, gift cards, and other costs were reasonable and allocable
to the grant.

Program Evaluations. As we noted in Finding No. 1, PPCC charged the grant account $86,000
for quarterly installments on a contract for evaluation, data collection and testing administration,
and other related services for the ERF program. PPCC provided the contractor’s invoices, but
the invoices did not provide any details on the work performed. PPCC did not provide us with
the annual evaluation reports or any other documentation of the services provided under the
contract. In Finding No. 1, we disallowed $42,000 of the $86,000 charged to for the contract.
The balance of $44,000 is included in the costs for which PPCC did not provide adequate
documentation.

Gift Cards. PPCC charged the grant account $9,308 for 265 gift cards.9 PPCC purchased
65 Target gift cards ($20 each) in February 2004 for use as incentives to encourage teachers and
parents to complete surveys related to the ERF program. PPCC purchased 100 WalMart gift
cards ($40 each) in July 2004 to be used as stipends for families participating in an evaluation
study for the ERF program. The third purchase in December 2004 was for another 100 WalMart
gift cards ($40 each).10 The approved budget included $15,000 for stipends for families’
participation in experimental evaluation study (200 families at $75 each).

PPCC provided us with its inventory control logs used to track the gift cards and 178 completed
surveys. However, PPCC had no documentation confirming that the teachers and parents
actually received the gift cards. PPCC did not require teachers and parents to sign the logs or
other documentation to confirm receipt of the gift cards.

Other Costs. PPCC charged the grant account $29,795 for costs for which it provided invoices
or other documentation, but the provided documents did not contain sufficient information to
determine whether the costs were an allowable use of grant funds. PPCC also charged the grant
$4,076 for costs for which PPCC only provided the credit card statement and $3,000 for costs for
which PPCC did not provide documentation. We were unable to determine whether the
purchases were necessary and allocable costs for the grant.




9
    This amount includes an $8 fee for the cashier’s checks used to purchase the gift cards.
10
  The PPCC form used to request a check to purchase the cards did not specify the intended use of the gift cards on
the form.
Final Report
ED-OIG/A09F0010                                                                                 Page 15 of 36


PPCC Did Not Provide Adequate Documentation
For Costs Charged to the MEES Grants

2000 MEES Grant. PPCC did not provide adequate documentation to demonstrate that $27,754
charged to the grant account was reasonable and allocable to the grant. PPCC charged the grant
account $22,500 for three quarterly installments on a contract for evaluation of the MEES
program and database development and training (three quarterly installments of $7,500). PPCC
did not provide a copy of the contract or any documentation of the services provided under the
contract.

PPCC provided invoices or other documentation for $1,605 of travel, printing, supplies, and
events costs charged to the grant account that did not contain sufficient information to determine
whether the costs were an allowable use of grant funds. PPCC only provided a credit card
statement for another $1,281 of travel, supplies and conference costs and provided no
documentation at all for $2,368 charged to the grant account.

2004 MEES Grant. PPCC did not provide adequate documentation to demonstrate that $621
charged to the grant account was reasonable and allocable to the grant. For $110 of
transportation and printing costs charged to the grant account, PPCC provided documentation
that did not contain sufficient information to determine whether the costs were an allowable use
of grant funds. PPCC provided no documentation for $511 of telephone costs charged to the
grant.

Recommendations

We recommend that the Acting Chief Financial Officer, in collaboration with the Assistant
Secretary for Elementary and Secondary Education, require PPCC to—

3.1 	   Provide adequate supporting documentation to demonstrate that the $90,179 charged to
        the ERF grant account, $27,754 charged to the 2000 MEES grant account, and $621
        charged to the 2004 MEES grant account were reasonable and allocable to the grants.11
        If adequate documentation is not provided, PPCC should return or adjust its claims for
        reimbursement, whichever is appropriate, for the costs and related indirect costs.

3.2 	   Implement procedures for contracts issued under Department-funded grants or subgrants
        that include: 1) requiring contractors to provide a list of activities completed and
        deliverables to support invoiced amounts; and 2) maintaining the documentation as
        support for charges to grant accounts.

3.3 	   Implement changes in its procedures for Department-funded grants or subgrants funds
        used for tracking gift cards and other incentives to identify individual incentive recipients
        and provide evidence that intended recipients took possession of the incentive.


11
  The $90,179 for the ERF Grant is comprised of the following amounts noted in the finding: $44,000, $9,308,
$29,795, $4,076 and $3,000. The $27,754 for the 2000 MEES Grant is comprised of the following amounts:
$22,500, $1,605, $1,281, and $2,368. The $621 for the 2004 MEES Grant is comprised of the following amounts:
$110 and $511.
Final Report
ED-OIG/A09F0010                                                                       Page 16 of 36


3.4 	   Implement changes in its procedures for administering Department-funded grants or
        subgrants to ensure that documentation for payments to vendors and credit card
        companies charged to grant accounts clearly identify the items purchased, the unit cost,
        and the grant program or other activity benefiting from the purchase.

PPCC Comments

PPCC disagreed with parts of the finding and stated it was unable to comment on other parts.
PPCC stated that two program evaluation reports were provided to, and accepted by,
ED program staff and that PPCC obtained signatures for receipts of gift cards and sent the
documentation to the auditor. PPCC stated that it was unaware and was not asked for
clarification on the invoices or other documentation related to the other costs for the ERF grant
that were cited in the finding. In regards to the part of the finding related to the MEES grant,
PPCC referred to the two program evaluations provided to ED program staff and stated that a
letter from the evaluator was provided to the auditors explaining the performance of his
functions. PPC also stated that documentation for the travel and other costs charged to the
MEES grants were subsequently provided and that the conferences attended by PPCC staff did
not provide “certificates of attendance.”

OIG Response

ED program staff have provided us with the program evaluation reports for the ERF and 2000
MEES grants; however, PPCC has not provided the contract for the MEES evaluation or other
documentation of the actual services provided by the contractor for each payment. The program
evaluation report for the 2000 MEES grant stated on its cover page that the report was prepared
by the contractor, but there is no mention of the contractor’s role in the program evaluation
report for the ERF grant. Contrary to PPCC statements, we did not receive documentation
confirming that the teachers and parents actually received the gifts cards and, as mentioned
earlier, we provided PPCC with the transaction detail on September 8, 2005 (prior to the exit
conference) for the items cited in the finding that required additional documentation. PPCC has
not provided adequate documentation for the travel and other costs charged to the MEES grants
that are cited in the finding.


FINDING NO. 4 – PPCC Did Not Meet Grant Matching Cost Requirements

ESEA § 1234(b) requires that recipients of grants made under William F. Goodling Even Start
Family Literacy Programs, which encompass the MEES grants, provide a matching share of the
program costs. The ERF program does not have a statutory requirement for a matching share of
program costs. However, in the approved ERF grant application, PPCC stipulated in the
itemized budgets that PPCC would provide matching contributions. The regulations at 34 C.F.R.
§ 75.700 state that “[a] grantee shall comply with applicable statutes, regulations, and approved
applications . . . .” Also, the grant award notification states that “[t]he amount of non-federal
funds the recipient must contribute to the project as identified in the recipient’s application.
When non-federal funds are identified by the recipient where a cost share is not a legislation
requirement, the recipient will be required to provide the non-federal funds.” Thus, PPCC was
required to provide the matching costs stipulated in the approved ERF grant application.
Final Report
ED-OIG/A09F0010                                                                                       Page 17 of 36



PPCC provided a list of personnel and fringe benefits costs that it claimed were used to meet the
required match for the ERF grant and the 2004 MEES grant, but the documentation provided was
not sufficient to show that the claimed amounts were for grant-related activities. PPCC did not
provide information on whether or how it met the required match for the 2000 MEES grant.

                   Table 4: Grant Matching Requirements and PPCC’s Claimed Match
       Grant                        Period                     Required Match                   Claimed Match
                           January 1, 2004 through
ERF (a)                                                             $395,549                       $405,014
                             December 31, 2004
                           October 1, 2003 through
2000 MEES (b)                                                       $309,033                               $0
                             September 30, 2004
                           October 1, 2004 through
2004 MEES (c)                                                       $941,551                       $129,398 (d)
                             September 30, 2005
(a) PPCC stipulated that it would provide personnel, fringe benefits, and supplies during the period January 1 through
    December 31, 2004. The provided list of matching costs consisted solely of personnel and fringe benefits costs.
(b) PPCC stipulated that it would provide personnel, fringe benefits, supplies, and contractual costs during the period
    October 1, 2003 through September 30, 2004.
(c) PPCC stipulated that it would provide personnel, fringe benefits, and supplies during the period October 1, 2004
    through September 30, 2005. The provided list of matching costs consisted solely of personnel and fringe benefits
    costs.
(d) Claimed match for the initial five-month period of the grant (October 1, 2004 through February 28, 2005).


OMB Circular A-122 specifies the required documentation for personnel costs used to meet a
matching requirement. Attachment B, paragraph 8.m. (4) states—

          Salary and wages of employees used in meeting cost sharing or matching
          requirements on awards must be supported in the same manner as salaries and
          wages claimed for reimbursement from awarding agencies.

PPCC provided employees’ semi-monthly timesheets as support for the claimed matching costs.
As noted in Finding No. 2, the timesheets showed arrival and departure times and hours worked,
but the timesheets did not identify the activities that the employees were engaged in during the
period. Also, for employees whose salaries were charged in part to the grants (split-funded
employees), PPCC used predetermined percentages to distribute the employee’s salary to the
grants. As a result, we were unable to determine whether the claimed matching costs were for
time worked on grant-related activities.12



12
  The Department raised another concern regarding the matching costs claimed for teachers and aides for the
ERF grant. In the report on its April 7-8, 2005 monitoring visit, SASA informed PPCC that the resumes of teachers
and aides in the ERF classrooms document that none of the seven aides and only one teacher met the qualification
specified in the grant application. SASA concluded that the claimed match was unallowable under
34 C.F.R. § 74.23(a)(3) and (4) which states that matching costs must be necessary and reasonable for the proper
and efficient accomplishment of project or program objectives and be otherwise allowable under the applicable cost
principles.
Final Report
ED-OIG/A09F0010                                                                        Page 18 of 36


Thus, PPCC did not have the required supporting documentation for the claimed matching costs
and, in the case of the 2000 MEES grant, did not provide information on how the match was met.
In order to meet the matching requirement, a portion of the identified allowable costs, equivalent
to the required match, must be funded from sources other than the ERF, 2000 MEES, and 2004
MEES grants. PPCC is ineligible for grant funds used for allowable grant costs if PPCC does
not provide adequate supporting documentation for its share of program costs.

Recommendations

We recommend that the Acting Chief Financial Officer, in collaboration with the Assistant
Secretary for Elementary and Secondary Education, require PPCC to—

4.1 	   Provide adequate supporting documentation that the staff whose personnel costs were
        used to meet the required match for the ERF grant and the 2004 MEES grant actually
        worked on grant-related activities. If adequate documentation is not provided, PPCC
        should be required to return or adjust its claims for reimbursement for, whichever is
        appropriate, the portion of the allowable costs for each of the three grants that should
        have been met with the required match.

4.2 	   Return or adjust its claims for reimbursement, whichever is appropriate, for the portion of
        2000 MEES grant costs for which PPCC did not meet the required match or does not
        provide adequate supporting documentation for matching costs.

4.3 	   Ensure that personnel costs used to meet the matching requirements for Department-
        funded grants or subgrants are properly documented in accordance with OMB Circular
        requirements and monitor each grant to ensure that matching cost requirements are met.

PPCC Comments

PPCC disagreed with the finding. PPCC stated that the auditors compared the actual matching
costs for the early portion of the MEES program to the full year budgeted matching costs. PPCC
stated that its matching costs for the months of June, July, and August 2005 have been provided
to the Department and that PPCC is meeting or exceeding the matching requirement.

OIG Response

We clarified in Table 4 that the claimed match for the 2004 MEES grant was for the initial five
months of the grant. To demonstrate that it has met the matching requirements, PPCC will need
to provide adequate supporting documentation to the Department of the claimed match.
Final Report
ED-OIG/A09F0010                                                                        Page 19 of 36


FINDING NO. 5 – PPCC Drew Down Federal Funds for the 2004 MEES Grant in
                Excess of Its Immediate Needs

PPCC requested Federal funds for the ERF and MEES grants through the Department’s Grant
Administration and Payment System (GAPS). The GAPS shows that over the period from
October 2004 through February 2005 (end of our audit period), PPCC made five draws of
$27,978 each for the 2004 MEES grant, totaling $139,890. As of February 28, 2005, PPCC’s
2004 MEES grant account showed total expenditures of $85,278 for direct costs and $8,310 of
indirect costs. Thus, as of March 1, 2005, PPCC had $46,302 of Federal funds on hand for grant
expenditures. PPCC’s monthly expenditures for the 2004 MEES grant averaged about $18,700,
which was significantly less than the $46,302 of Federal funds on hand.

EDGAR 34 CFR § 74.22(b)(2) and (3) contain similar requirements to OMB Circular A-110
Subpart C, Paragraph 22(b) which states—

        Cash advances to a recipient organization shall be limited to the minimum
        amounts needed and be timed to be in accordance with the actual, immediate cash
        requirements of the recipient organization in carrying out the purpose of the
        approved program or project. The timing and amount of cash advances shall be as
        close as is administratively feasible to the actual disbursements by the recipient
        organization for direct program or project costs . . . .

To remind grantees of the above requirement, GAPS asks grantees to respond to the following
statement when initiating a request for Federal funds:

        I certify, by processing this payment request and/or reallocation, that the funds are
        being expended within three business days of receipt for the purpose and
        condition of the grant or agreement. Are you sure you want to submit the
        request?

Rather than limiting draws to its immediate needs for grant expenditures, PPCC drew each
month an amount equal to 1/12 of the total grant award. As a result, PPCC had Federal funds on
hand in excess of its immediate needs.

Recommendations

We recommend that the Acting Chief Financial Officer, in collaboration with the Assistant
Secretary for Elementary and Secondary Education, require PPCC to—

5.1 	   Calculate the average daily balance of 2004 MEES grant funds on hand in excess of its
        immediate needs for payment of expenditures for grant activities for the period from
        October 1, 2004 to current, and reimburse the Federal government for interests costs
        incurred as a result of the excessive draws of Federal funds.

5.2 	   Implement procedures for Department-funded grants and subgrants to limit requests for
        Federal funds to PPCC’s immediate needs for performance of the grant.
Final Report
ED-OIG/A09F0010                                                                         Page 20 of 36


PPCC Comments

PPCC disagreed with the finding, but did not explain the basis for its disagreement. PPCC stated
that it had previous correspondence with the Department on this issue and provided a copy of a
letter, dated August 31, 2005.

OIG Response

The provided letter has no relevance to the finding, as it contains no reference to PPCC’s
requests for Federal funds or its procedures for making such requests.


FINDING NO. 6 – PPCC Procedures and Practices Did Not Meet Federal
                Standards for Financial Management Systems

PPCC has not maintained a financial management system that meets the standards specified in
OMB Circular A-110 and reiterated in EDGAR 34 CFR § 74.21. Subpart C, Paragraph 21(b) of
the Circular states—

       Recipients’ financial management systems shall provide for the following.
       (1) Accurate, current and complete disclosure of the financial results of each
       federally-sponsored project or program . . .
       (2) Records that identify adequately the source and application of funds for
       federally-sponsored activities . . .
       (3) Effective control over and accountability for all funds, property and other
       assets. Recipients shall adequately safeguard all such assets and assure they are
       used solely for authorized purposes.
                                            *****
       (6) Written procedures for determining the reasonableness, allocability and
       allowability of costs in accordance with the provisions of the applicable Federal
       cost principles and the terms and conditions of the award.
       (7) Accounting records including cost accounting records that are supported by
       source documentation.

As noted in the other findings in this report, the internal control in PPCC’s financial management
system did not ensure that costs charged to grant accounts were necessary, approved, and
allocable to the grants, draws of Federal funds were limited to immediate needs, and matching
requirements were met. The findings included recommendations to improve PPCC’s internal
control procedures. During our review, we identified the following additional practices and
internal control weaknesses that place grant funds at risk of loss or waste.
Final Report
ED-OIG/A09F0010                                                                                   Page 21 of 36


PPCC’s Procedures for Requesting and
Approving Purchases Were Not Followed

The PPCC staff responsible for purchasing (who was also the MEES Project Director during the
period covered by our review)13 provided the following description of the purchasing process.
Project directors submit their request to the purchasing clerk, who conducts research to identify
the vendor offering the best price for the requested items. The purchasing clerk gives the
information to the accounting clerk who provides the PPCC account to be used for the purchase
and confirms the vendor’s prices, the allowability of the purchase, and that the appropriate
budget line item contains sufficient funds for the purchase. The Executive Director then
approves the purchase and the purchasing clerk places the order.

PPCC also provided us with its Standard Operating Procedures (SOP), which describes
accounting activities and the responsibilities of the accounting staff and others who interact with
the accounting staff. The SOP specifies the procedures for purchases of $200 or less (petty cash
transactions) and purchases over $200. SOP states that purchases over $200 require the
completion of a purchase order form.

From our review of supporting documentation for ERF and MEES grant expenditures, we found
that the described procedures for requesting and approving purchases over $200 were not
consistently followed. We identified several purchases over $200 that did not have purchase
orders. The purchase orders that we reviewed contained no evidence that the Executive Director
approved the purchase, did not always indicate the project for which the purchase was being
made, and often had no price information for the items to be purchased. We noted an instance
where the purchase order was created after the order was placed. We found vendor invoices that
did not contain the Executive Director’s initials indicating her approval for payment. We also
found that staff were provided blank checks to pay for expenses such as hotel charges.

PPCC’s Purchases Involved Related Parties

PPCC employs or conducts business with relatives of the Executive Director. The Executive
Director’s granddaughter was the MEES Project Director and purchasing clerk. Thus, the
purchasing clerk was accepting purchase requests for her grandmother and the Executive
Director was approving purchases made by her granddaughter.

PPCC purchased services from a company owned by her granddaughter and her granddaughter’s
husband. PPCC prepared vendor cost comparisons for some, but not all, types of services
purchased from the company.

As noted in Finding No. 1 and Finding No. 3, PPCC charged $86,000 to the ERF grant account
for payments to a contractor for evaluations of its ERF program. Documentation obtained at
PPCC shows that the contractor hired the Executive Director’s son to assist with system analysis.
The employment agreement states that he will be paid a $37,500 base salary for 240 days of
work. In a letter to SASA, dated January 28, 2005, the Executive Director stated that her son did
the testing and data collection, including parent surveys.

13
  The MEES Project Director stated that she places the orders in the evening from her home. The accounting clerk
places the orders when situations arise that require purchases to be made during the day.
Final Report
ED-OIG/A09F0010                                                                         Page 22 of 36



EDGAR 34 CFR Part 75 specifies the conditions that must be met by a grantee receiving Federal
funds directly from the Department. The regulations at 34 C.F.R. § 75.525, which address
conflict of interest in situations other than procurements, state—

       (a) A grantee may not permit a person to participate in an administrative decision
       regarding a project if:
           (1) The decision is likely to benefit that person or a member of his or her
           immediate family; and
           (2) The person:
               (i) Is a public official; or
               (ii) Has a family or business relationship with the grantee.
       (b) A grantee may not permit any person participating in the project to use his or
       her position for a purpose that is—or gives the appearance of being—motivated
       by a desire for a private financial gain for that person or for others.

EDGAR 34 C.F.R. § 75.524 (c) states that the conflict of interest regulations covering
procurement contracts are in 34 C.F.R. Part 74. EDGAR 34 C.F.R. § 74.42 states, in part—

       No employee, officer, or agent shall participate in the selection, award, or
       administration of a contract supported by Federal funds if a real or apparent
       conflict of interest would be involved. A conflict would arise when the employee,
       officer, or agent, any member of his or her immediate family, his or her partner,
       or an organization which employs or is about to employ any of the parties
       indicated herein, has a financial or other interest in the firm selected for an award.

PPCC Incurred Excessive Shipping Costs

PPCC incurred excessive shipping or transportation costs for orders placed when it requested
overnight or next day shipping. The following table shows item costs and shipping costs charged
to the ERF grant account for one order that delivered in three shipments:

                             Table 5: Example of Excessive Shipping Cost
 Order Date                 Items Ordered              Items Cost    Shipping Cost       Total Cost
  11/30/04       100 copies of Good Night Moon                 $719           $302            $1,021
   12/10/04      7 copies of Freight Train                          $38           $21             $59
                 87 copies of To Market, To Market
   12/14/04                                                      $1,466          $556           $2,022
                 97 copies of a Curious George
 Totals                                                           $2,223         $879         $3,102
 Percent of total cost incurred for shipping charges ($879 divided by $3,102)              28 Percent
Final Report
ED-OIG/A09F0010                                                                          Page 23 of 36


PPCC Did Not Promptly Pay Vendor and
Credit Card Invoices Charged to Grant Accounts

PPCC had not paid vendor invoices, dating as far back as April 2004, for purchases charged to
the grant accounts. Most of the unpaid invoices were for supplies and books. For example, at
the time of our review in March 2005, PPCC had not paid one vendor for six invoices, totaling
$22,605, for invoices dated in August and September 2004. Additionally, we found that PPCC
had incurred finance charges and over-the-limit fees on credit card statements.

Recommendations

In addition to the recommended corrective actions in the other findings, we recommend that the
Acting Chief Financial Officer, in collaboration with the Assistant Secretary for Elementary and
Secondary Education, require PPCC, with regards to all Department-funded grants and
subgrants, to—

6.1 	   Provide training to staff on its procedures for requesting and approving purchases and
        implement procedures for an independent review to ensure that requestors, purchasing
        clerk, accounting clerk, and Executive Director adhere to the procedures and fulfill their
        assigned responsibilities.

6.2 	   Implement additional safeguards in its procedures to preclude actual conflicts of interest
        and address the appearance of conflicts of interest in its administration of grants,
        especially in the hiring and assignment of project staff and the procurement of goods and
        services.

6.3 	   Implement changes in its purchasing procedures that provide for earlier submission of
        purchase orders to avoid excessive shipping costs.

6.4 	   Promptly pay vendors for purchases charged to grant accounts for which PPCC has
        received Federal funds.

PPCC Comments

PPCC confirmed that it had written procedures and concurred that PPCC did not consistently
follow to its procedures for approving purchases. PPCC stated that the family relationships were
unavoidable because PPCC could not afford to hire new staff for the programs and concluded
that corrective action to address the family relationships (i.e., potential conflicts of interest) was
not required because its ERF and MEES programs had ended. PPCC stated that its Board of
Directors, whose members were unrelated to the Executive Director and her family members,
approved the purchases of services from the granddaughter’s company and that PPCC was not
made aware of the purchases for which comparisons were not provided to the auditors. PPCC
confirmed the information reported in the finding related to the contractor’s employment of the
Executive Director’s son and stated that the Executive Director’s son had been previously
employed by the contractor for such duties. PPCC concurred that excessive shipping costs were
incurred and explained that shipments had been expedited to meet program deadlines.
Final Report
ED-OIG/A09F0010                                                                     Page 24 of 36


OIG Response

Both the ERF and MEES grants provided funding for staff positions to administer the programs.
Thus, PPCC had the option to hire additional staff for those programs rather than having family
members fill the positions. During our review, we found checks that were signed by the
Executive Director and another individual and that PPCC’s written procedures state that the
Board of Directors is provided a summary report (a manually-prepared report providing a
summary of detailed monthly reports) and an administrative report (a manually-prepared report
providing information on administrative and financial issues, such as taxes, insurance, etc.).
However, PPCC written procedures did not address the Board of Director’s involvement, if any,
in the selection of individuals for PPCC positions and vendors. When a conflict of interest
exists, PPCC needs to have procedures in place to preclude actual conflicts of interests, and in
the case of procurements, the appearance of conflicts of interest. Even though PPCC no longer
administers the ERF and MEES programs, it needs to have such procedures in place to ensure it
properly addresses conflicts of interest provisions applicable to other Federal programs
administered by PPCC. We provided PPCC with information on the two purchases from the
granddaughter’s company for which PPCC had not provided vendor cost comparisons. On
March 15, 2006, PPCC provided us with vendor cost comparisons that did not include cost
comparisons for the two purchases.
Final Report
ED-OIG/A09F0010                                                                        Page 25 of 36




                   OBJECTIVE, SCOPE, AND METHODOLOGY 



Our audit objective was to determine whether PPCC properly accounted for and used grant funds
provided under the ERF, 2000 MEES, and 2004 MEES grants in accordance with the grant terms
and applicable Federal laws and regulations. Our review covered the period October 1, 2003 to
February 28, 2005.

To accomplish our objective, we reviewed PPCC’s ERF and MEES grant applications, budgets,,,
and OMB Circular A-133 audit reports for the years ended June 30, 2003 and June 30, 2004.
We also reviewed PPCC’s written policies and procedures applicable to charges made to the
ERF and MEES grants and matching contributions. We interviewed PPCC officials and staff
responsible for implementing the financial and program portions of the ERF and MEES grants.
We also communicated with the SASA staff within OESE responsible for administering the ERF
program and with the OME staff responsible for administering the MEES program.

To achieve our audit objective, we relied on reports of ERF and MEES grant expenditures for
the period October 1, 2003 through February 28, 2005, which PPCC staff generated from its
financial accounting system. We verified the completeness of the data by comparing the total
expenditures on the report to the total amount drawn down as shown in GAPS. We also
compared report information to information on source documents for all listed transactions.
Based on the results of these tests, we concluded that the reports were sufficiently reliable to be
used in meeting the audit objective.

We gained an understanding of PPCC’s internal control system related to personnel and
purchasing transactions. We interviewed PPCC staff responsible for these areas and performed
detailed testing to confirm our understanding. Due to time constraints, we interviewed PPCC
staff responsible for maintaining inventory information, but did not perform any testing or
analysis related to the inventory of equipment and other purchases. However, we
performed 100 percent testing of the direct costs charged to the ERF and MEES grant accounts
for the period October 1, 2003 through February 28, 2005.

We performed our fieldwork at PPCC in Pittsburg, California during the period March to
May 2005. We held an exit briefing with PPCC officials on September 28, 2005. Our audit was
performed in accordance with generally accepted government auditing standards appropriate to
the scope of the review described.
Final Report
ED-OIG/A09F0010                                                                    Page 26 of 36




            Enclosure: PPCC’s Comments on the Draft Report


The attachments referenced in PPCC’s letter, dated November 8, 2005, are not included.
The documents relate to items that were not included as questioned or unsupported costs
reported in the final report.
         PITTSBURG PRE-SCHOOL AND COMMUNITY COUNCIL, INC.
         One Stop Shop For Family Services




         08 November 2005




         United States Department of Education 

         Office of Inspector General 

         501 “1” Street, Suite 9-200 

         Sacramento, Ca 95814 



         Control Number ED-OIG/A09F0010
                       Preschool and Community Council, Inc.,’s Use of Early Reading First
                    and Migrant Education Even Start Grant Funds.


         Response of Pittsburg Pre-School and Community Council to the October 11, Draft Audit
         Report of the United States Department of Education Office of Inspector General

         This response will be organized according to the order of the findings as listed in the
         table of contents of the Draft Audit.

         Finding No.1—PPCC Charged and Grants for Costs That Were Not Necessary, Approved
         or Related to Grant Activities.

         Response to Finding No.1. 

               We do not concur with this finding. Our reasons for disagreement 





1760 Chester Drive
Pittsburg,CA 94565
(925) 439-2061 (925) 432-7473 FAX
www.ppscc.info
PPSCC/Page 2

       Construction.

Our disagreement is based on we did internal remodeling to the classroom and a sprinkler
system, which was required by code for the early Reading First activities we were to
provide in that room. We depended upon the instruction in documentation entitled “Early
Reading First Guidance”, dated March 17, 2003. Paragraph E-7, May a grantee use Early
Reading First Grant funds to change the pre-school physical environment? Yes. Early
Reading First funds may be used for the reasonable and necessary costs associated with
minor remodeling or alterations of classroom space to enhance early language and
cognitive development activities. For example, funds may be used to create a separate
reading center or “library” area, as long as there are no structural alterations to the
building. However, Early Reading First funds may not be used to make structural
alterations to the building. However, Early Reading First funds may not be used to make
structural alterations (such as by moving walls) or for construction. These were not basic
construction nor structural alterations, but minor alterations of classroom space.

       Testing and Data Collection.

We disagree with this finding on the grounds that the amount being disallowed was in the
budget and was approved. Our Evaluator used an employee of CER to do the Data
Collection on behalf of Pittsburg Pre-School And Community Council, Inc. The data
collection was performed as required by the grant and paid for within limits approved in
the grant. Since the Data Collection Specialist used had been a pre-existing employee of
the Evaluator (CER) so was neither initially hired for this project.

       Computer Software.

We disagree with the finding on the grounds that the Computer Software was applicable
to pre-school children. Attachment 1 is the Vendor’s description of the program’s
components. You will see that the components that we purchased and billed to this grant
are directly relevant to preschool children. Attachment 2 is another copy of a document
from the vendor which identifies in details the software purchased.


       Playground Equipment.

We disagree with the finding on the grounds that the equipment was for the exclusive use
by ERF students.

       Conference fees and Travel.
We concur with these findings and have corrected the charges. $125.00 which charged in
error to Early Reading First has been corrected and charged to the appropriate health and
Human Services Grant. The $521.00 charged for Kimberly Payton tickets has been
corrected and charged to the general fund.

        Books and Supplies.

We are unable to concur or disagree with the findings in this category because we can not
find the amounts referred to by the auditors in our list of the items of concern given to us
by the auditors at the time of their visit.

If the details can be given us with the respect to dates and items questioned, we will be
able to respond.

        2000 MEES Grant.

We are unable to concur or disagree with the findings in this category because we can not
find the amounts referred to by the auditors in our list of the items of concern given to us
by the auditors at the time of their visit.

If the details can be given us with the respect to dates and items questioned, we will be
able to respond.

Finding No, 2

We were not aware, as the auditors did not tell us that they needed more documentation
for the payroll. They requested time sheets, outside payroll records. We do have daily
logs for the employees that are working split programs.

We are sending you this response though it is incomplete to comply with your time line
given us. However, due to our accounting problems, which we have explained in the
past, we need more time to give details on our response. However, it is our intent to
disagree with findings 2-6 and we need two weeks to prepare those responses. We are
hampered by the need to ask our controller to come out of retirement on an as available
basis. We, thus request a two week additional time to answer the remaining findings.

FOR OUR FAMILIES

/s/
Francis Greene
Executive Director

FG/jm
         PITTSBURG PRE-SCHOOL AND COMMUNITY COUNCIL, INC.
         One Stop Shop For Family Services




         19 November 2005




         United States Department of Education 

         Office of Inspector General 

         501 “1” Street, Suite 9-200 

         Sacramento, Ca 95814 


         Continued Response:

         Control Number ED-OIG/A09F0010
                       Preschool and Community Council, Inc.,’s Use of Early Reading First
                    and Migrant Education Even Start Grant Funds.


         This is the continued response of Pittsburg Pre-School and Community Council to the
         October 11, Draft Audit Report of the United States Department of Education Office of
         Inspector General. We appreciate the extension given to facilitate our further response.
         Though we are continuing the experience difficulties due to personnel changes in
         accounting, the additional time as allowed us to respond further.

         This response will be organized according to the order of the findings as listed in the
         table of contents of the Draft audit, beginning with Finding No. 2, where our initial
         response ended.

         The information is available

              • 	 For the employees who are 100% on either the ERF or the MEES Grant
                  Education program, the job descriptions document their exclusive duties in the
                  sole relevant program.



1760 Chester Drive
Pittsburg,CA 94565
(925) 439-2061 (925) 432-7473 FAX
www.ppscc.info



              •    Attached is an example of the activity log that we have developed for split-funded
                   employees.
Finding No. 3:

We disagree with this finding.

 The auditors continued to combine program evaluation testing and data collection in a
manner that is causing some confusion. These are two separately budgeted items

   • 	 We provided reports by the initial evaluator and the replacement that was
       eventually approved by the Early Reading Administrators. We had great
       difficulty getting approval, in spite of submitting names of various qualified
       evaluators. However, one that approval was received we acted promptly and the
       resulting evaluation was sent to Early Reading, that evaluation incidentally was
       very favorable.

   • 	 Data collection was sub-contracted out to CER (which was the evaluating entity)
       to facilitate articulation between the two functions. That item was originally in
       the budget as an employee of ours. Thus, the services came within the budgeted
       amount and there is no discrepancy

   • 	 With regard to the gift cards, documentation exists, which was shown. When the
       auditors were here, they requested signatures for receipt of the gift cards to the
       parents. That was accomplished upon their request and sent after they had left. It
       appears that they are not aware that we had complied with their request.

Other Costs:

   • 	 We are not aware and were not asked for clarification on any invoice or other
       documentation that the auditors felt did not contain sufficient information. If such
       demand for clarification had been made, we would have accommodated the
       auditors. Without further clarification as to what is being questioned, we can not
       concur nor disagree with this finding.

   • 	 As noted above, the evaluation was subsequently completed and provided to the
       funding source. In fact, they have been provided two evaluations. Information
       requested by the auditors on the evaluator’s status and duties was subsequently
       sent. A letter from the evaluator explaining his performance of his functions was
       prepared at the request of the auditors and sent to them.

   • 	 The auditors request for documentation on travel and other items included in the
       MEES grant, where available, were subsequently provided. We checked the
       availability of the “certificates of attendance” that the auditors asked for at certain
       conferences and were informed by the people who ran the conferences that they do
       not issue such certificates.
   • 	 The same documentation that was subsequently submitted to the auditors is still
       available.

Finding No. 4:

   • 	 In regard to the issue of our meeting the grant matching requirement, we disagree
       with the auditors. The auditors only reported current match for the MEES
       program, early in that program. That partial match was compared to a full year
       budgeted match. We have subsequently provided the grantor an updated
       programmatic match for the months of June, July and August. It is apparent that
       we are meeting or exceeding our match requirement as originally approved when
       the entire program year is considered.

Finding No. 5:

   • 	 With regard to the finding that the “draw downs” exceeded our immediate needs,
       we disagree. We had previous correspondence with the grantor on this issue, as a
       result of our investigation into that question, it was determined that the amount of
       $21,262.00, which was identified as drawn down prematurely, was in fact used
       within one month. In fact, the money was not enough to cover the June expenses.
       This was explained in a letter drafted by our controller, dated August 31, 2005, a
       copy of which is attached.

Finding No. 6:

   • 	 This finding assumes in a summary fashion the items dealt with above, such as
       lack of a match. However, we do have written accounting procedures in place.
       We did concur with a few items as mentioned above.

   • 	 With regard to the issue brought up by the auditors, while here, as to the dates of
       approvals of expenses in some instances, we concur and have taken steps to
       correct that practice.

   • 	 As the number of programs grew for our small Agency, we could not afford the
       luxury of hiring new staff, which would have avoided the family relationship
       discussed in the evaluation. Since both programs have ended, we have no
       corrective action to take.

   • 	 In effort to deal with individual problem of printing service, we submitted price
       comparisons for the company owned by the granddaughter’s husband, with the
       price of other vendors that showed that those items were purchased at lower than
       market cost. Those purchases were also approved by the Board of Directors,
       which has no relatives of the individuals mentioned. Those were approved
       because of the favorable price. We submitted comparisons to the auditors when
        they were here and are not aware of which purchases they are questioning, so that
        we can provide comparisons with respect to such purchases.

   • 	 There is no inconsistency in the answers which have been given concerning the
       employment of John Greene. It is correct as reported by our director that he did
       the testing and data collection, including parent survey. It is also true, that he
       performed those services employed by CER, the evaluator. As noted, the
       evaluating agency did report the circumstances of John Greene’s employment
       with them. It is also, been explained to the funding source that John Greene had
       been a previous employee of CER for such duties in the past.

   • 	 The complaint about excessive shipping costs does accurately reflect our shipping
       costs at a time when we were operating under emergency conditions and needed
       those items expedited to us. That was because of a problem with the initial
       program director, who had not ordered sufficient supplies and we needed the
       supplies to meet our program deadlines. This emergency has been fully discussed
       with the funders.

FOR OUR FAMILIES

/s/
Francis Greene
Executive Director

FG/jm
                                                                    1760 Chester Drive, Pittsburg, California 94565>3920
                                                                    (925) 439-2061
_and       Community Council, Inc.                                  FAX (925) 432-7473     E-Ma~:   pscc17600inreactu::om
o

..,.
o
..,
 .•
 til
a.
 .
 11\




.a....­.
 ::t
.a
 VI




            31 August 2005


            V,S. Department of Education 

            ATTN: Mary Gonzales 

            Office of Elementary and Secondary Education 

            Office of Migrant Education 


            In reference to your memorandum dated 08/29/2005 , the following applies:

            The explanation about the amount of time and effort for the listed staff includes: Staff
            training, observation of children, assessment of children, teaching, parent meeting, parent
            conferences, curriculum planning and implementation. The listed staff are program staff
            and match staff. Please see the list sent on August 25, 200S.

             Please be advised that Even Start funds are not being used as a source of matching funds
             for Migrant Education Event Start.

             The listed staff in our August 19t " fax was the administrative, home education and the
             teaching staff that work with the children. The staff for the match work 100% with the
             children and is equaled to 100% match. The source of the matching funds is from the
             State.

             In reference to the "curriculum/instructional materials", listed on the spreadsheet
             contributed to the MEES project.

              Curriculum materials in the amount of58,100.00, includes:

              The pre-school curriculum:

                  • 	 The curriculum "Let's Begin Curriculum, which includes:
                      CIRCLE Manual
                      Let's Begin Handout

                  • 	 PALS II Curriculums, which includes
       12 Videotapes 

       Facilitator Manual 

       Video Manuals 

       Home Visitor manuals 

   •   Parent Workbooks (English/Spanish)
   •   Home visitor bag
   •   Coaching bag

The training included

   •   Pals II Training for 4 days, for 4 staff.
   •   Let's Begin Training for 5 staff
   •   PALS Site Visit

The travel benefited the MEES project because this was intensive training for program
staff.

$21,262 was used to pay for the portion of the June 2005 expenditures, for June 2005
amounting to $32,516.20

 $511,266.23, represents the updated match, which supersedes the amount reported in
 item 8(b) Non-Federal funds.

 In accordance to our records we are on schedule to meet the required match.

 FOR OUR FAMILIES



  Aurora Dominingo 

  Controller 

                                   Activity Log
Employee Name: _ __ _ _ _ _ _ _ _ _ _ _ __ __   Pay Period Ending: _________

                                                    Activity    Comments
       Date        Activity Code   Time-In
                                                     Hours




                      TOTAL HOURS FOR THE rERIOD:
